                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

    Case Number: 'A06060023                                                                    Page 1 of 1



                  It was alleged that a PI' or COPI~ on an NSF award3 had taken ideas from another research
          group's4 N M proposals5that helshe had previously reviewed on a similar topic. We obtained copies
          of the NIH proposals and reviewer lists to compare to the NSF award proposal. We also reviewed
          the NSF funding history of the PI at both NSF and NIH as well as his general research history. The
          evidence supported that the PI'S research was on a parallel but independent track with the other
          research group. Of the numerous NIH reviewers who reviewed the research group's proposals none
          could be identified as collaborators with the PI or CoPIs with sufficient evidence to warrant further
          investigation.

                    Accordingly, this case is closed.




'
I                                                                                                                 '11
NSF OIG Form 2 (1 1/02)
